IN THE SUPREME COURT FOR THE UNITED STATES
Case No. 20-5846
Anthony C. Green,
Petitioner,
v.
Kelly Lake, et al.,
Respondents.

RESPONDENTS’ WAIVER OF RESPONSE PURSUANT TO RULE 15.5
The undersigned is authorized on behalf of the respondents Kelly Lake,
Anthony Bastien and Jesse Peterson in the above-entitled matter to hereby waive
their right to file a brief in opposition to the petition for writ of certiorari. I am a
member of the Bar of the Supreme Court of the United States. If the Court
requests one or more of the municipal respondents to file a response to the
Petition, those respondents will of course honor that request with a response
filed by a Bar member.

Dated: October 12, 2020

By: s/Jon K. Iverson
Jon K. Iverson, #146389
Susan M. Tindal, #330875
IVERSON REUVERS CONDON
9321 Ensign Avenue South
Bloomington, Minnesota 55438
952-548-7200
jon@irc-law.com
susan@irc-law.com
Attorneys for Respondents Kelly Lake,
Anthony Bastien and Jesse Peterson

